sme ( (COCKLE staat
2311 Douglas Street A Le ge al Brie fs E-Mail Address:

Omaha, Nebraska 68102-1214 contact@cocklelegalbriefs.com
Est. 1923

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850
No. 21-21

CAROLINE ROSS,
Petitioner,
v.
JUDSON INDEPENDENT SCHOOL DISTRICT,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h). I certify that the BRIEF IN OPPOSITION TO
PETITION FOR WRIT OF CERTIORARI in the above entitled case complies with the typeface
requirement of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point
for the text and 10 point for the footnotes, and this brief contains 4406 words, excluding the parts

that are exempted by Supreme Court Rule 33.1(d). as needed.

Subscribed and sworn to before me this 9th day of August, 2021.
lam duly authorized under the laws of the State of Nebraska to administer oaths.

) GENERAL WOTARY-State of Nebraska Z 2 4 d,
RENEE J, GOSS 9. ( decd caer ‘

Affiant

 

 

My Comm. Exp. September 5, 2023

Notary Public 41201
